VII. INDEX TO APPENDICES

APPENDIX K

[

APPENDIX K

5 USC 7513(b)(2) STATES:
“ provides that an employee faced with a
proposed termination “is entitled to ... a
reasonable time, hut not less than 7
days, to answer orally and in writing
and to furnish affidavits and other
documentary evidence in support of the
answer”

VII. INDEX TO APPENDICES

APPENDIX L

Case: 19-1908

Document: 65

Page: 1

Filed: 09/02/2020

NOTE: This disposition is nonprecedential.

tHntteb States Court of Appeals:
for tfje jfeberal Circuit
ELIZABETH AVILES-WYNKOOP,
Petitioner
v.
DEPARTMENT OF DEFENSE,
Respondent
2019-1908
Petition for review of the Merit Systems Protection
Board in No. DC-315H-16-0327-B-1.
Decided: September 2, 2020
Elizabeth Aviles-Wynkoop, Washington, DC, pro se.
DELISA SANCHEZ, Commercial Litigation Branch, Civil
Division, United States Department of Justice, Washing­
ton, DC, for respondent. Also represented by Ethan P.
Davis, Reginald Thomas Blades, Jr., Robert Edward

Kirschman, Jr.
Before PROST, Chief Judge, LlNNand Taranto, Circuit
Judges.

\^

Case: 19-1908

Document: 65

2

Page: 2

Filed: 09/02/2020

AVILES-WYNKOOP v. DEFENSE

Per Curiam.
Elizabeth Aviles-Wynkoop began working as a pro­
gram analyst at the United States Department of Defense
(DoD) in June 2015. Two months later, DoD placed he r on
administrative leave. In October 2015, DoD proposed to
terminate Ms. Aviles-Wynkoop’s employment, and after re­
ceiving her response, DoD terminated her employment in
January 2016. Ms. Aviles-Wynkoop appealed to the Merit
Systems Protection Board, which affirmed DoD’s termina­
tion decision on the merits. We affirm.
I
Before she began working at the DoD job at issue in
this matter, Ms. Aviles-Wynkoop served in other positions
in the federal government. She started with a temporary
appointment to a clerk typist position in September 1982,
which soon became a career conditional appointment. She
left that position in April 1990, but she returned to the fed­
eral government to work as a contract specialist from April
2003 to January 2009 and then worked as a contract over­
sight specialist from August 2011 to September 2014. Ms.
Aviles-Wynkoop joined DoD as a program analyst on June
29, 2015.
On August 13, 2015, Ms. Aviles-Wynkoop met with
Carol Ensley, Chief of Acquisition Management in Ms.
Aviles-Wynkoop’s department. Ms. Ensley informed Ms.
Aviles-Wynkoop that several employees had expressed con­
cerns about Ms. Aviles-Wynkoop’s behavior, which they
characterized as “inappropriate, overly aggressive, and un­
professional.” S.A. 63. Ms. Aviles-Wynkoop rejected the
characterization and, later that day, emailed Ms. Ensley
and Mr. Russell to address the behavior in question. S.A.
141. In that response, she stated that her behavior was
justified by a contractor’s misconduct and several co-work­
ers’ subpar work habits. S.A. 141-42. Two weeks later,
Ms. Aviles-Wynkoop missed a staff meeting, prompting an

Case: 19-1908

Document: 65

AVILES-WYNKOOP v. DEFENSE

Page: 3

Filed: 09/02/2020

3

email from Ms. Ensley asking Ms. Aviles-Wynkoop to pro­
vide notice of such absences in the future. S.A. 136. Ms.
Aviles-Wynkoop replied that she did not believe that she
had to report to Ms. Ensley. Id.
On August 28, 2015, Ms. Ensley placed Ms. AvilesWynkoop on paid administrative leave. S.A. 58. Ms.
Ensley stated that the action did “not constitute a discipli­
nary or adverse action” and that Ms. Aviles-Wynkoop was
expected to remain available by telephone during Pier]
normal duty hours.” Id.
In a letter dated October 27, 2015, Ms. Ensley proposed
that Ms. Aviles-Wynkoop be terminated from her position.
S.A. 60. The letter began with a statement that Ms. AvilesWynkoop had not yet served a full “probationary period”
and was thus a “true probationer with limited pre-termi­
nation procedural rights and post-termination appeal
rights.” Id. The rest of the letter laid out the reasons for
the proposal—Ms. Aviles-Wynkoop had refused to recog­
nize Ms. Ensley as a supervisor; had “demonstrated a pat­
tern of discourteous behavior towards contractors, fellow
employees and management”; had refused to modify her
behavior after being reprimanded; and had sent inappro­
priate emails to senior staff. S.A. 62-64. The letter coneluded that Ms. Aviles-Wynkoop had ten days to submit an
oral or written response, could “submit affidavits and other
documentary evidence,” and could seek the assistance of
“an attorney or other representative.” S.A. 65.
Because Ms. Aviles-Wynkoop did not receive the letter
until November 6, 2015, she had until November 16, 2015,
to submit a reply. She requested two extensions of the due
date, and DoD and Ms. Aviles-Wynkoop agreed that she
would present an oral reply on December 14, 2015, at the
Pentagon. On December 11, 2015, Ms. Aviles-Wynkoop re­
quested a third extension, which DoD denied. She and DoD
agreed on a time on December 14 for her personal

Case: 19-1908

4

Document: 65

Page: 4

Filed: 09/02/2020

AVILES-WYNKOOP v. DEFENSE

appearance at the Pentagon, but she did not appear at that
time, notifying DoD an hour later that she had experienced
car troubles. She did, however, submit a written response.
On January 4, 2016, DoD terminated Ms. AvilesWynkoop’s employment. In a written decision, Jerry Rus­
sell, Deputy Chief of the Business Resource Center, noted
that Ms. Aviles-Wynkoop had not “dispute[d] the fact that
any of the charged misconduct occurred”—she “merely pro­
vided the reasons [she] engaged in the misconduct.” S.A.
69. Finding that those explanations did not “negate” the
conduct, Mr. Russell evaluated the proposed penalty of ter­
mination. He stated that Ms. Aviles-Wynkoop was a “true
probationer,” S.A. 68, and on that premise found removal
appropriate because Ms. Aviles-Wynkoop had not “demon­
strated the ability to perform the essential functions of
[her] position” and termination was necessary to “promote
the efficiency of the service,” S.A. 70. Mr. Russell went on,
however, to decide that termination was the appropriate
penalty, considering “all relevant Douglas factors,” even on
the assumption that Ms. Aviles-Wynkoop was a full em­
ployee. Id. Although Mr. Russell noted that the absence of
a disciplinary record and her lengthy previous service were
mitigating factors, he concluded that those factors were
outweighed by several aggravating factors—her inflamma­
tory behavior, the nature of her position, her direct insub­
ordination, and her refusal to apologize—and the fact that
a DoD manual recommended removal. S.A. 70—71.
On February 3, 2016, Ms. Aviles-Wynkoop appealed
her termination to the Board. In late March, the adminis­
trative judge assigned to the matter dismissed the appeal
for lack of jurisdiction, determining that Ms. AvilesWynkoop had only probationary status. But the full Board
vacated that decision, explaining that there was a genuine
issue of material fact as to whether Ms. Aviles-Wynkoop’s
previous federal service qualified her to skip the probation­

ary period.

In January 2017, the administrative judge

Case: 19-1908

Document: 65

AVILES-WYNKOOP v. DEFENSE

Page: 5

Filed: 09/02/2020

5

found Ms. Aviles-Wynkoop to qualify as a full employee,
thus giving the Board jurisdiction. Ms. Aviles-Wynkoop
agreed to waive her right to an evidentiary hearing with
witnesses testifying live, and the administrative judge set
a March deadline for the submission of evidence. DoD sub­
mitted affidavits from Ms. Ensley, Mr. Russell, and oth­
ers.1
On May 24, 2017, the administrative judge issued an
initial decision, which affirmed DoD’s decision to terminate
Ms. Aviles-Wynkoop. The administrative judge first ex­
plained that there was a sufficient connection between Ms.
Aviles-Wynkoop’s “unprofessional behavior in the office”
and her “ability to accomplish her duties satisfactorily.”
S.A. 9. Turning to the reasonableness of the penalty, the
administrative judge noted that a “failure to follow instruc­
tions may be sufficient cause for removal.” S.A. 10. Ms.
Aviles-Wynkoop, he wrote, had committed several acts of
misconduct and “each act of unprofessional conduct consti­
tuted intentional conduct of a serious nature.” Id. Moreo­
ver, Ms. Aviles-Wynkoop had failed to correct her behavior
despite a clear warning from her supervisor. Id. Accord­
ingly, the administrative judge concluded, “the removal
penalty comes within the bounds of reasonableness ” Id.
The administrative judge also rejected Ms. Aviles-

1 Ms. Aviles-Wynkoop suggests that it was improper
for the Board to rely on those affidavits because they pre­
sented evidence that was not included in the notice of pro­
posed termination. Petitioner’s Supp. Br. at 12-13. The
affidavits, however, were submitted before the evidentiary
deadline establish by the administrative judge. And Ms.
Aviles-Wynkoop has not identified any requirement that
an agency attach to a notice of proposed termination all ev­
idence of the misconduct described in the notice.

Case: 19-1908

Document: 65

6

Page: 6

Filed: 09/02/2020

AVILES-WYNKOOP v. DEFENSE

Wynkoop’s claims that she had been denied due process
and removed in retaliation for whistleblowing. S.A. 14-17.
Ms. Aviles-Wynkoop initially sought review by the full
Board. Before receiving a final decision from the full
Board, she filed a petition in this court as well. Because
the Board had not rendered a final decision, we ordered her
to show cause why the petition filed in this court should not
be dismissed as premature. She then withdrew her request
for review by the full Board, thereby making the adminis­
trative judge’s initial decision the final decision of the
Board, which we have jurisdiction to review under 28
U.S.C. § 1295(a)(9).
II
We must affirm the Board’s determinations unless they
are “(1) arbitrary, capricious, an abuse of discretion, or oth­
erwise not in accordance with law; (2) obtained without
procedures required by law, rule, or regulation having been
followed; or (3) unsupported by substantial evidence.” 5
U.S.C. § 7703(c). Ms. Aviles-Wynkoop argues that the
Board committed reversible error in reviewing three chal­
lenges—that DoD did not properly assess the factors rele­
vant to imposing the penalty of removal, deprived her of
due process, and retaliated against her for two protected
whistleblowing disclosures.
We reject Ms. AvilesWynkoop’s arguments.
A
To sustain an adverse employment action based on im­
proper conduct, an agency must establish not only that the
charged conduct occurred and was sufficiently connected to
the efficiency of the government service, but also that the
penalty imposed was reasonable. Bryant v. Nat’l Sci.
Found., 105 F.3d 1414, 1416 (Fed. Cir. 1997). Of those el­
ements, Ms. Aviles-Wynkoop focuses here only on the rea­
sonableness of the penalty. The Board’s review of an

Case: 19-1908

Document: 65

Page: 7

Filed: 09/02/2020

AVILES-WYNKOOP v. DEFENSE

7

agency-imposed penalty “is highly deferential,” and “[i]t is
well-established that selecting the penalty for employee
misconduct is left to the agency’s discretion.” Webster v.
Dep’t of Army, 911 F.2d 679, 685 (Fed. Cir. 1990).
Ms. Aviles-Wynkoop argues that DoD failed to consider
factors that are relevant to a penalty’s reasonableness under Douglas v. Veterans Admin., 5 M.S.P.R. 280, 302, 305
(1981). But she does not show that DoD disregarded or
misevaluated pertinent Douglas factors. More particularly, she does not show that the Board abused its discre­
tion in determining that DoD reasonably considered the
Douglas factors. S.A. 9-11.
The Board concluded that Mr. Russell, the deciding of­
ficial, “appropriately determined that the appellant’s re­
moval was warranted under the facts and circumstances of
this case.” S.A. 10. Mr. Russell described Ms. AvilesWynkoop’s behavior and listed several factors he consid­
ered to be aggravating: the nature of her job, which re­
quired her to “evaluate contractor employee performance,
review programs, collaborate with customers in developing
budgets and spend plans, and conduct presentations and
briefings”; her refusal to recognize her supervisor; her continued misconduct after the August 13, 2015 warning; and
her lack of remorse. S.A. 71. Each of those factors corresponds, respectively, to a Douglas factor—“the employee’s
job level and type of employment, including supervisory or
fiduciary role”; “the employee’s ability to perform at a sat­
isfactory level and its effect upon supervisors’ confidence in
the employee’s ability to perform assigned duties”; “the
clarity with which the employee was on notice of any rules
that were violated”; and the “potential for the employee’s
rehabilitation.” 5 M.S.P.R. at 305. Mr. Russell also con­
sulted DoD’s manual for “Disciplinary and Adverse Ac­
tions” and found that, even for a first-time offense,
termination was a recommended penalty for insubordina­

tion.

S.A. 71.

This analysis matches another of the

Case: 19-1908

Document: 65

8

Page: 8

Filed: 09/02/2020

AVILES-WYNKOOP V. DEFENSE

Douglas factors—“consistency of the penalty with any ap­
plicable agency table of penalties.” 5 M.S.P.R. at 305. And
Mr. Russell expressly noted his consideration of Ms. AvilesWynkoop’s length of service and lack of disciplinary record
as mitigating factors. S.A. 71.
We see no reversible error in the Board’s conclusion
that DoD adequately considered the relevant penalty fac­
tors.
B
The for-cause removal protections of 5 U.S.C. § 7513(a)
entitle federal employees to procedural due process rights.
Stone u. FDIC, 179 F.3d 1368, 1375 (Fed. Cir. 1999). ‘The
essential requirements of due process . .. are notice and an
opportunity to respond.”
Cleveland Bd. of Educ. v.
Loudermill, 470 U.S. 532, 546 (1985). And in the specific
context of a tenured public employee whose termination
has been proposed, “[t]he tenured public employee is enti­
tled to oral or written notice of the charges against him, an
explanation of the employer’s evidence, and an opportunity
to present his side of the story.” Id. We have endorsed this
standard in the agency context, highlighting the “need for
a meaningful opportunity for the public employee to pre­
sent his or her side of the case.” Stone, 179 F.3d at 1376.
Ms. Aviles-Wynkoop’s informal brief in this court as­
serts that DoD committed a “gross abuse of due process.”
Petitioner’s Br. at 1 (response to question 2). Before the
Board, Ms. Aviles-Wynkoop specified two alleged due-process violations. First, she said, DoD incorrectly informed
her that she was serving a probationary period. “A notice
of proposed removal that mischaracterizes the proceedings
as a probationary removal,” she argued, “cannot be said to
have provided an employee a ‘meaningful opportunity to
respond.”’ Petition at 3-4. Second, she said, Mr. Russell
relied, in his termination decision, on certain grounds “not

specified in the proposal notice.” Id. at 4.

Case: 19-1908

Document: 65

AVILES-WYNKOOP V. DEFENSE

Page: 9

Filed: 09/02/2020

9

As to the first, Ms. Aviles-Wynkoop has not shown that
DoD’s initial mistake about her probationary or full-em­
ployee status deprived her of the guaranteed right to re­
spond to the proposed termination. Section 7513(b)(2)
provides that an employee faced with a proposed termina­
tion “is entitled to ... a reasonable time, but not less than
7 days, to answer orally and in writing and to furnish affi­
davits and other documentary evidence in support of the
answer.” Ms. Aviles-Wynkoop had more than a month to
craft an answer—she received the proposal on November
6, 2015, and was allowed until December 14, 2015, to re­
spond. S.A. 67. The letter of proposed termination ex­
pressly invited her to submit affidavits and documentary
evidence. S.A. 65. Although “§ 7513 .. . do[es] not provide
the final limit on the procedures the agency must follow,”
Stone, 179 F.3d at 1375, Ms. Aviles-Wynkoop has not
stated with particularity what required process she was de­
nied. We therefore reject her first procedural challenge.
We also reject Ms. Aviles-Wynkoop’s second procedural
challenge specified in her petition to the Board—that Mr.
Russell “relied on several aggravating factors and charac­
terizations not specified in the proposal notice.” Petition at
4. Specifically, Ms. Aviles-Wynkoop pointed to Mr. Rus­
sell’s findings that her alleged misconduct caused a “hostile
environment,” that several employees submitted formal
complaints to her supervisor, that she did not apologize for
her behavior, that she was “progressively counseled” by a
supervisor, and that her misconduct was both “imperti­
nent” and “intimidating.” Id. But Ms. Aviles-Wynkoop has
not shown that DoD failed to provide adequate “notice of
the charges against” her in these respects. LoudermiU, 470
U.S. at 546.
In the letter proposing termination, DoD stated that
Ms. Aviles-Wynkoop had previously been reprimanded for
“inappropriate, overly aggressive, and unprofessional con-

duct” and had “explicitly exhibit[ed] ... disdain and utter

Case: 19-1908

Document: 65

10

Page: 10

Filed: 09/02/2020

AVILES-WYNKOOP v. DEFENSE

disrespect for contractors.” S.A. 63. The Board properly
determined that these statements put Ms. Aviles-Wynkoop
on notice that she was being accused of creating a “hostile
environment” and of acting in a manner that was “imperti­
nent” and “intimidating.” Similarly, in the letter, DoD
highlighted the August 13 meeting in which Ms. Ensley
“gave [Ms. Aviles-Wynkoop] documentation regarding spe­
cific observations and concerns pertaining to [the con­
duct].” Id. This statement, and the meeting itself, was
enough to put Ms. Aviles-Wynkoop on notice that her co­
workers had filed complaints about her behavior. DoD fur­
ther stated in the letter of proposed termination that Ms.
Ensley had on multiple occasions—once by email and once
in person—advised Ms. Aviles-Wynkoop to modify her be­
havior. S.A. 62—63. The reference to Ms. Ensley’s commu­
nications provided sufficient notice of what Mr. Russell
later used the words “progressively counseled” to describe.
Finally, DoD stated in its letter that when Ms. AvilesWynkoop was confronted about her behavior, she “at­
tempted unsuccessfully to justify [her] professional con­
duct.” S.A. 63. This statement sufficiently gave notice of
DoD’s belief in Ms. Aviles-Wynkoop’s lack of remorse.
C
Under 5 U.S.C. § 2302(b)(8)(A), an agency may not take
“a personnel action” against an employee who makes a pro­
tected disclosure, i.e., “any disclosure of information” that
the employee “reasonably believes evidences .. . any viola­
tion of any law, rule, or regulation, or . . . gross misman­
agement, a gross waste of funds, an abuse of authority, or
a substantial and specific danger to public health or
safety.” If an employee establishes the existence of a pro­
tected disclosure, and further establishes that the pro­
tected disclosure was a “contributing factor” to the agency’s
decision to take the personnel action, the agency may de­
feat the whistleblowing defense to the adverse action by

demonstrating that it would have taken the action

Case: 19-1908

Document: 65

AVILES-WYNKOOP v. DEFENSE

Page: 11

Filed: 09/02/2020

11

regardless of the protected disclosure. See Carr v. Soc. Se­
curity Admin., 185 F.3d 1318, 1322 (Fed. Cir. 1999); 5
U.S.C. § 1221(e).
Ms. Aviles-Wynkoop argued to the Board that she had
made two protected disclosures before the agency’s termi­
nation decision. The first was in her August 13, 2015,
email exchange with Ms. Ensley and Mr. Russell. Petition
at 2 (referring to S.A. 141-42). In that exchange, she al­
leged, she “disclosefd] [her] belief that the contractors who
were working in her office had access to privileged infor­
mation in violation of agency rules” and that “contractors
wQere still providing maintenance services to the cyber se­
curity office even though the maintenance agreement had
expired.” Id. The second protected disclosure, she con­
tended, was in a phone call to a DoD Inspector General hot­
line, in which she stated that a certain contractor had
failed to do its job properly. Id.
Substantial evidence supports the Board’s finding
that—even if, as we may assume without deciding, the
specified disclosures qualified as “protected” and contrib­
uted to DoD’s termination decision—DoD would have made
the same decision to terminate in the absence of those dis­
closures. In Carr, we stated that the following factors are
relevant to this inquiry: “the strength of the agency’s evi­
dence in support of its personnel action; the existence and
strength of any motive to retaliate on the part of the agency
officials who were involved in the decision; and any evi­
dence that the agency takes similar actions against employees who are not whistleblowers but who are otherwise
similarly situated.” 185 F.3d at 1323. Here, the Board de­
termined that DoD proved its firm belief that Ms. AvilesWynkoop created a “toxic” work environment; the hotline
complaint was made months after Ms. Aviles-Wynkoop had
already been placed on administrative leave; and most of
the relevant misconduct took place before the August 13
email exchange. S.A. 17. On this record, we cannot say

Case: 19-1908

Document: 65

12

Page: 12

Filed: 09/02/2020

AVILES-WYNKOOP V. DEFENSE

that the Board committed reversible error in finding that
DoD would have taken the same termination action had
the alleged disclosure never been made.
Ill
Ms. Aviles-Wynkoop has a filed a motion in this court
asking us to direct DoD to produce to her all of her workrelated emails from June 29, 2015, to January 4, 2016. We
deny the motion. The appropriate time for seeking discov­
ery was when the matter was before the Board, whose rules
provide for discovery and give the administrative judge
wide discretion regarding discovery.
See 5 C.F.R.
§§ 1201.41, 1201.73; Curtin v. Off. of Pers. Mgt., 846 F.2d
1373, 1378-79 (Fed. Cir. 1988). Ms. Aviles-Wynkoop has
not identified any Board error regarding discovery in this
case or provided any other basis for us, as an appellate
court, to act regarding further document discovery at this
stage.
IV
For the foregoing reasons, the decision of the Board is
affirmed.
The parties shall bear their own costs.
AFFIRMED

!

VII. INDEX TO APPENDICES

APPENDIX M

United States Court of Appeals
for the Federal Circuit
ELIZABETH AVILES-WYNKOOP
PETITIONER
v.
DEPARTMENT OF DEFENSE
RESPONDENT
Docket Number 2019-1908
PETITIONER’S PETITION FOR COMBINED PANEL REHEARING AND
REHEARING EN BANC
I am a Pro Se Litigant, and it is my sincere belief that the Panel Decision is contrary to the
following Decisions of The Supreme Court of The United States, precedents of this Court,
and The United States Constitution.
Although the Petitioner did not specifically point out each issue in detail concerning due
process as it relates to the above stated Supreme Court mention, this will be fully discussed
now. On page 5 of the Court’s Decision, the Court stated, “Ms. Aviles-Wynkoop has not
stated with particularity what required process she was denied.”
It is now obvious that I did not specify enough detail to satisfy this Court. The Petitioner has
an opportunity to state her due process claims in specific detail to this Honorable Court. Pro
Se Litigants do the best they can. I sincerely apologize to this Court for my lack of detail in
my complaint. In my Board Appeal, on page 3,1 did cite the Cleveland Board of Education v.
Page 1 of 15

Case 2019-1908.

Lloudermill, 470 U.S.,532, 546 (1985) decision as the authority that absolutely states The
Constitution requires an opportunity to respond before an adverse action can be effectuated.
After consulting with some Labor lawyers, and others, I was informed that it appears from
the surface that the Panel Decision may have made an oversight from their Land Mark
Decisions pertaining to ‘due process’ as it relates to providing Petitioners their Constitutional
Right to respond before an adverse action can be effectuated. In other words, The U.S.
Supreme Court and The Constitution have mandated that the pursuit of life, liberty, and
property can’t be deprived without the opportunity to respond before an adverse action can be
effectuated. For clarification, The U.S. Supreme Court and The Constitution have declared
that a federal job is a property right. These are the exact words from the Laudermill Decision.
As the Panel pointed out in their Decision, I did complain that the agency’s Decision Letter
denied me due process because the Decision Letter contained issues that were not stated in
the Proposal letter. The Merit Systems Protection Board (M.S.P.B.) refers to this issue as
harmful procedural error. The Decision Letter became effective without informing me that I
had a right to address the additional issues that were not contained in the Proposal Letter. In
the Panel’s Decision Letter, they specifically stated, “Ms. Aviles-Wynkoop has not identified
any requirement that an agency attach to a Notice of Proposed Termination all evidence of
the misconduct described in the notice”. I have raised the denial of due process since the
initiation of my complaint. Specifically, my denial of due process was established by my
Constitutional Fifth (5th} Amendment right, and The Supreme Court Decision pertaining to
Cleveland Board of Education v. Laudermill, 470 U.S. 532, 546 (1985). The U.S. Supreme
Page 2 of 15
\

Case 2019-1908

\

Court opined that a federal employee must be given a meaningful opportunity to invoke the
discretion of the decision maker before a personnel action is finalized. For example, if the
Decision Letter contains additional charges or information that was not contained in the
Proposal Notice, then this constitutes an ex parte communication, and a direct violation of the
U.S. Supreme Court Decision that mandates the employee has a right to invoke the discretion
of the decision maker before a personnel action is finalized. It is impossible for the employee
to invoke discretion if information is withheld or not provided to him or her before a final
personnel action is finalized. In other words, the agency can’t terminate an employee, and
then tell the employee she can respond to the charges that were not contained in the Proposal
Letter. More significantly, this Court, The U.S. Court of Appeals for The Federal Circuit has
held that ex parte communications that introduce new and material information about a
federal employee’s case to a deciding official constitute a due process violation. Stone v.
Federal Insurance Corporation, 179 F.3d 1368, 1376-77 (Fed Cir 1999). In other words, if the
Proposal Letter does not list all charges in the notice, then any information that was
considered outside of the Notice, constitutes an ex parte communication, and a due process
violation.
On page 5 of the Panel’s Decision, the Panel specifically stated, “Ms. Aviles-Wynkoop
suggests that it was improper for the Board to rely on those affidavits because they presented
evidence that was not included in the Notice of Proposed Termination During Probationary
Period. The affidavits, however, were submitted before the evidentiary deadline established
by the Administrative Judge (AJ). Ms. Aviles-Wynkoop has not identified any requirement
Page 3 of 15

Case 2019-1908

that an agency attach to a Notice of Proposed Termination During Probationary Period all
evidence of the misconduct described in the notice.” I pray and hope that the above
information has fully addressed the Court’s concern about detail responses. The following
information is designed to explain my position with more detail in order for the Court to
make a decision based on facts.
I sihcerely believe that the Panel may have made an oversight or did not see certain parts of
my Pre-Hearing Submissions. Pertaining to my Corrected Revised Response to the
Respondent’s Brief dated Julyl4, 2020, on page 13,1 stated, “Since 5 C.F.R. 752.404 (f)
forbids the agency from considering any reason not specified in the advance notice of
proposed action, agencies must consider in preparing the advance notice required by section
7513 (b)(1) all of the factors in which they intend to rely in any subsequent decisions” For
only clarification purpose, I have enclosed a copy of 5 C.F.R.752.404 (g) for the court’s
review (Addendum C ). In addition, ! cited 5 Decisions in which this C.F.R. was confirmed
in other Circuits. In other words, this is the C.F.R. that ban ex parte communications. Even
without citing this C.F.R. I believe that your Decision on Ward v. USPS, 634 F3d 1274 (Fed.
Cir 2011) forbids new information not provided to a federal employee-is considered as an ex
parte communication. In essence, the Ward Decision and 5 C.F.R.752.404 (g)- demand that
all information that was considered in the decision-making process, this information must be
provided to the employee in order for the employee to make an adequate defense. According
to Ward and 5 C.F.R. 752.404 (g), the proposed action must contain all of the information in
which the agency relied upon to make a decision. If an agency makes a decision on
Page 4 of 15

Case 2019-1908

information that was not specified in the Proposed action, then this is the introduction of new
information that was not provided to the employee, is considered as an ex parte
communication. 5 C.F.R.752.404 (g) just clarifies the Ward decision for non-attorneys and
labor representatives.
Pertaining to Ward- WARD v. USPS, 634 F.3d 1274 (Fed Cir 2011), the introduction of any
new or material information that the decision maker received or considered in the decision­
making process, and not provided to the employee, then this constitutes an ex parte
communication, and a due process violation. In my case, the agency listed several
aggravating charges in the Decision Letter, that were not listed in the Proposal Letter (due
process violation).
If the AJ had adhered to Board procedures pertaining to 5 C.F.R.752.404 (g), the Ward
decision, and did his job, then this issue would not be in this Court. The rule is simple and
fair. If the agency commits an ex parte communication during the decision-making process,
then the agency can’t prevail based on Ward and 5 C.F.R.752.404 (g).
SPECIFIC GROUNDS FOR REVERSIBLE ERROR BASED ON THE PANEL’S
DECISION DATED SEPTEMBER 2, 2020
Pertaining to the Panel’s Decision dated September 2, 2020, the Panel stated “ Section 7513
(b) (2) provides that an employee faced with a proposed termination “is entitled to.. .a
reasonable time, but not less than 7 days, to answer orally and in writing and to furnish
affidavits and other documentary evidence in support of the answer” In my case, the Decision
Letter was dated January 4, 2016 (which contained the ex parte communications). The
Page 5 of 15

Case 2019-1908

effective date of the Decision Letter was also January 4, 2016, which is a clear violation of
the 7-day minimum requirement rule. This is exactly why an agency should never make a
Decision effective the same day it was issued. Most agencies permit at least 7 days prior to
the Decision becoming effective (according to my Board Representative). We now have a
clear and confirmed due process violation that the agency created.
I would like to take this time to make a minor correction to 5 C.F.R.752.404 (f). The correct
citation should be 5 C.F.R.752.404 (g). I will fully clarify and specify the exact language
contained in 5 C.F.R.752.404 (g) at the summary of my brief. The primary difference is that
the (f) should be changed to (g).
In addition, The 5th Amendment to the Constitution guarantees me due process pertaining to
the deprivation of my property interest (job) without due process. This will be discussed
later.
THE AGENCY MADE A GROSS VIOLATION OF MY 5th AMENDMENT RIGHT
The Constitution states only one command twice. The Fifth Amendment says to the Federal
Government that no one shall be “deprived of life, liberty, or property.” Without due process.
The 5th Amendment and the Appellate Courts have determined that a federal job is a property
right.
The Respondents violated my property right by denying My Constitutional Right to
respond to all of the charges that were contained in the Proposal, and Decision Letters before
an agency decision was made (Terminating my employment without a response from me). I
Page 6 of 15

Case 2019-1908

was denied of My Constitutional Right to respond to the additional charges in the Decision
Letter, that were not contained in the Proposal Letter (ex parte communications). The
Constitution makes it clear that the Government can’t deprive an employee of his or her
property right without due process. In other words, the employee must have an opportunity to
respond to the charges BEFORE an agency Decision is made.
Specifically, pertainihg to my case, the Government made a decision to immediately
terminate my employment on January 4, 2016, without providing me My Constitutional
Right to respond to the Notice of Decision on Proposed Termination During Probationary
Period that contained ex parte communications that were not contained in the Notice of
Proposed Termination During Probationary Period. It is my understanding that the
introduction of new information not provided to the employee is often called ex parte
communications.
According to Laudermill, “The right to due process is “absolute” and does not depend on the
merits of the claim.” 71
In the AJ ‘initial decision’ the AJ commented, “an action in which such process is not
provided must be reversed. See Stephen v. Department of the Air Force, 47, M.S.P.R. 672
(1991).” According to the AJ citation about due process, and it is clear that I did not have an
opportunity and my right to respond to all of the charges, whether they are contained in the
Proposal or Decision Letter before I was Terminated, then this is a blatant abuse of my due
process rights as guaranteed by the Fifth Amendment to the Constitution. Whether it be a

Page 7 of 15

Case 2019-1908

criminal or civil matter, the Government can’t prevail with a proven 5th Amendment
Constitutional violation. Pertaining to my case, the Government told me that I could respond
to the charges 1 year and 2 months after I had been Terminated. The 5th Amendment requires
a right to respond before a removal, not 1 year and 2 months after removal. The AJ abused
his authority by misleading the Panel that he had the authority to establish new response
deadlines that clearly violated the due process rights guaranteed by The 5th Amendment. The
5th Amendment clearly states an employee has the right to respond and address the charges
prior to a removal. In direct violation of The 5th Amendment, and without any authority, the
AJ created a new order basically stating that the agency had a new deadline to gather
evidence and solicit affidavits to support their Termination Letter dated January 4, 2016. The
new illegal deadline became March 24, 2017.
IT IS VERY DIFFICULT FOR THE COURTS TO RENDER A FAIR AND
IMPARTIAL DECISION WHEN THEY ARE MISLED, PROVIDED INACCURATE
AND FALSE INFORMATION FROM THE GOVERNMENT
It is now clear that this Honorable Panel was misled by the Government that the AJ
was acting within the scope his authority. This AJ should have known that he did not have .
any authority to establish new response deadlines that were in direct violation of the 5th
Amendment. These are the facts. On October 27, 2015, the agency Proposed Removal on
single charge that specified” Notice of Proposed Termination During Probation Period”. In
the body of this Notice, the agency cited allegations of misconduct to support the
Termination on the Probation charge. If anyone reads the Notice of Probation Termination,
this document speaks for itself. On January 4, 2016, the agency issued a Decision Letter
Page 8 of 15

Case 2019-1908

stating that my Termination was immediately effective on January 4, 2016.1 raised the issue
that the Decision Letter contained information that was not stated in the Proposal Letter. In
other words, ex parte communications.
On March 24, 2016, the AJ dismissed my appeal for lack of jurisdiction. I filed a Petition for
Review on this issue. On September 12, 2016, the Board remanded the case. On
January 12, 2017, the AJ opined that I was not a probationary employee, and I was entitled to
a full Board Appeal. Whenever a federal agencyioses a Jurisdictional Hearing, then their
case can’t be advanced because of a Constitutional Bar. The Bar is the 5th Amendment due
process protection rights.
The AJ and the Respondents knew they did not have any authority to extend deadlines to a
terminal procedurally defective case because of The 5th Amendment due process rights.
IT IS A DOCUMENTED FACT THAT THE AGENCY OFFICIALS COMMITTED
PERJURY AND THE OBSTRUCTION OF JUSTICE BY SUBMITTING SWORN
AFFADAVITS THEY KNEW WERE FALSE
Thank God for the United States Court of Appeals for the Federal Circuit. For the first time
since my case was initiated, I now have the opportunity to report criminal activity to an
unbiased body. It is significant to note that this allege criminal activity was reported to the AJ
with documented proof. The AJ ignored this evidence and ruled in favor of the agency. These
are the facts. According to the agency officials, I was a model employee and they were glad
to have me as a member of the staff (documented proof). However, if you read the Proposal
and Decision Letters, there is no mention that I ever was a good employee. In fact, these

Page 9 of 15

Case 2019-1908

Letters portray me as one of the worse employees on earth. The problem came when I
discovered these officials were engaged in the practice of awarding illegal personal service
contracts around $125,000 to individuals who could not qualify to receive the contracts.
Management Officials were also awarding personal service contracts for employees who
could not do the job after receiving a promotion. Personal Service Contracts require
Congressional Approval. Management actually told me that I was on thin ice because I could
not keep my mouth shut. I tried to keep quiet. However, when I discovered they awarded a
company called Net Centrics a 50-million-dollar contract after Net Centrics failed to
complete their first contract. Please understand that this is nothing more than a corrupt
ongoing criminal empire that survives by immediately retaliating and terminating all
Whistleblowers. I found out that a Whistleblower does not stand a chance with this group. I
simply refused to be a part of this group and become rich. It is significant to note that my
Board Representative filed a written statement to the AJ and stated that this group was so
corrupt and dishonest, and they should be referred for a full RICO investigation. My Board
Rep was a former U.S. Department of Justice employee. I also received the maximum
penalty for my refusal. After all, committing perjury and lying is not a problem when it
comes to protecting their multimillion-dollar criminal empire. This was more than I could
take. These people told me that contract fraud was nothing to worry about because there was
no accountability or penalty for contract fraud. They proved their point by referencing an
article in the Washington Post indicating that the tax payers got ripped off for 125 billion
dollars pertaining to fraud and waste. Their point was crystal clear. Not a single person was
Page 10 of 15

Case 2019-1908

held accountable or disciplined. I tried my very best to be quiet and look the other way.
Contract fraud and waste was flowing like wine. Since, I was the certifying authority for the
contractors to get paid, the agency was asking me to certify work that had not been done. I
just could not do this. Finally, I made a bold decision to tell management that they were
unprofessional, crooked, and unethical in the manner they awarded contracts. My e-mail is
dated August 13, 2015 and is contained in the record. This was a protected disclosure under
the Enhanced Whistle Blower Protection Act of 2012. Prior to this e-mail, I was a model
employee. Before Mr. Jerry Russell saw my e-mail dated August 13, 2015, Mr. Russell sent
me an e-mail addressing “observation concerns” dated August 14, 2015, in which he stated,
“my apologies for the confusion, hopefully this will clarify (1) there was a meeting with
Labor Relations yesterday that I attended with Carol. The purpose of the meeting was to
discuss Carol’s observations as presented to you yesterday. I did not draft the paper and it
was important that I attended as Carol’s supervisor to discuss issues raised (2) For the recordI do not have any concerns with your performance and I’m very glad to have you as part of
the team. I know Carol is as well. Please consider this e-mail as a formal apology from me
for any miscommunications that have occurred over the past day or so. I do not have any
intentions of further communications with LMER. In fact LEMR has stated that this is a
matter between the first line supervisor and the employee and that I should not be involved
unless required.”
For the Court’s record, pertaining to ADDENDUM B, Mr. Jerry Russell e-mail dated
August 14, 2015, was introduced to the Board record, M.S.P.B. Docket Number DC-315H16-0327-B-l -Exhibit I, page 9- March 30, 2017. In fact, my Board Representative
communicated the statement to the AJ, since the deciding official has vacated all of the
charges, then why is the case being advanced. After the charges were vacated and the agency
lost the Jurisdictional Hearing, My Board Representative filed a Formal Motion for Full

Page 11 of 15

Case 2019-1908

Reinstatement. The AJ denied the motion. My case should have been resolved at the Board
Level because the Agency vacated all of their charges with an apology attached. Even though
c

I am not an attorney, I know you can’t advance a case without any evidence.
THE PERJURY AND OBSTRUCTION OF JUSTICE CHARGES ARE CONFIRMED
BY THE FOLLOWING ACTIVITY
Prior to August 14, 2015,1 was a model employee according to Mr. Russell’s email dated
August 14, 2015 (ADDENDUM B). The following statement is critical. On August 14, 2015,
Mr. Jerry Russell, the Deciding Official vacated the “Observation” document that listed all
prior charges, and then apologized for the charges had been filed. Everything was good until
Mr. Russell read my first e-mail dated August 13, 2015, in which I listed a number of issues
pertaining to contract fraud, the crooked and unethical manner in which contracts were
awarded. It is now official that I was Terminated because I presented Whistleblowing
concerns directly to Mr. Russell and Upper Management. I had a legitimate right to raise
concerns about illegal activity without being Retaliated Against. When Mr. Russell read my
e-mail also dated August 13, 2015 addressed to him, and other executive managers
specifically stating that they were unprofessional, unethical, and crooked in the manner they
awarded contracts. Personal Service contracts are 100% illegal without congressional
approval- he immediately placed me on administrative leave on August 28, 2015 without any
pending charges because he vacated every charge on August 14, 2015. From August 28, 2015
to January 4, 2016, Mr. Russell could not create any additional charges because I was placed
on Administrative Leave and banned from the facility. Therefore, Mr. Jerry Russell, Carol
Ensley, and Victor Shirley all agreed to enter into a conspiracy to commit perjury and
Page 12 of 15

Case 2019-1908

obstruct justice for the purposes of silencing and punishing me for my Whistleblowing
activity. Mr. Jerry Russell and Carol Ensley knew the sworn affidavits were 100% false
because Russell and Ensley had vacated every charge on August 14, 2015. Mr. Russell even
apologized for the charges being noted from the very beginning. Without any pending
charges, perjury was the only way to get rid of me and silence my Whistleblowing activity.
THE AGENCY OFFICIALLY VACATED AND DISSMISSED ALL OF THEIR
CHARGES ON AUGUST 14, 2015 ( SEE ADDENDUM B)
This will probably go do\yn in history as one of the worse fraud and dishonesty case ever
presented to this Court. It is not wise to knowingly commit foolish perjury and obstruct
justice and have this information submitted to the nation’s second highest court without
thinking about the potential of receiving strong sanctions from the U.S. Department of Justice
Criminal Division. 'Since I am not an attorney, I do not know what to do about this. The AJ
was presented with ADDENDUM B and other evidence that confirmed the agency had
vacated all charges against me. The AJ ignored all of the evidence in my favor, and ruled
against me. For knowingly submitting false sworn affidavits to this Court, Mr. Russell, Ms.
Ensley, and Mr. Shirley should receive the maximum sanctions possible. Lying to the Board
probably will not get you a prison sentence. Lying and submitting intentional false sworn
affidavits to the Federal Courts is a high risk for a prison sentence. I have to give them credit,
they have been very successful with lying and submitting false documents to M.S.P.B. and
the Courts without much to worry about. They do not have an excuse for what they did
because I sent many e-mails that their activity was wrong and they were ripping off the tax
payers for millions of dollars. This is how they became rich. They would falsely state and fill
Page 13 of 15

Case 2019-1908

out Government documents that the work had been completed, when it was not. Remember,
there is no accountability or penalty for gross contract fraud. Nobody likes the
Whistleblower, in most cases, the Whistleblower is the only one who gets punished because
the corrupt people make up lies and use unjust adverse action to silence the Whistleblower. It
works 100% of the time. This is so unfair because the Whistleblower can’t afford to hire
competent counsel because they earned their money the right way. I can only pray and hope
that this Court will see the truth and perhaps appropriately deal with the liars and corrupt
high-ranking SES officials who commit foolish perjury. It is their anger and retaliation that
-x.

have placed them is this Court. They have worked very hard to receive the maximum
sanctions possible, and the maximum compensatory damages possible.
THE 8 MILLION DOLLAR WHISTLE BLOWER COMPLAINT SHOULD BE
CONFIRMED FOR THE FOLLOWING REASONS
Pertaining to law suits, if a party fails to defend an action, then that party usually lose. In my
particular case, the Government did not, and could not address the Whistleblowing claims
because they were true. First of all, I will establish that I made a protected disclosure to Mr.
Jerry Russell and his executive staff- that they were committing fraud and waste by being
unprofessional, crooked, and unethical in the manner they awarded contracts. This disclosure
is confirmed by the August 13, 2015 email and in Form 11, Informal Brief. In the agency’s
Proposal Letter, page 5, the agency proposed that I be Terminated based on my
August 13, 2015 email, stating that they were unprofessional, crooked, and unethical in the
manner they awarded contracts (this was a protected disclosure). On January 4, 2016, the

Page 14 of 15

Case 2019-1908

agency issued a Termination Letter indicating that my removal was based on the Proposal
Notice indicating that management was unprofessional, crooked, and unethical in the manner
they awarded contracts. This is a text book example of Reprisal and Retaliation. It is now
confirmed that I was Terminated for making a protected disclosure to the executive
management staff before I was Terminated. I also filed two subsequent complaints to the
Department of Defense (DoD) Inspector General. I later learned that the IG could not
investigate SES Government Officials. Since the agency failed to address the Whistleblowing
charges, the full 8 million dollars should be awarded. I believe a criminal referral would be
proper for the perjury charges. I am also respectfully requesting that I be immediately
reinstated at the GS 14 level with back pay and interest, and any other remedy the court
deems appropriate to make me whole.
Respectfully submitted,

Elizabeth Aviles-Wynkoop, Pro Se

Date:

October 3, 2020

Page 15 of 15

Case 2019-1908

PETITIONER’S TABLE OF CONTENTS CASE 19-1908
THE COURT’S PANEL DECISION.September 2, 2020—ADDENDUM A
TABLE OF AUTHORITIES....... -..........................................................

1

CLEVELAND BOARD OF EDUCATION...........................................

1 and 2

SPECIFIC GROUNDS FOR REVERSIBLE ERROR........................

■5

GROSS VIOLATION OF 5th AMENDMENT RIGHT-

6

DIFFICULT FOR THE COURT TO RENDER A FAIR DECISION
WHEN THEY ARE MISLED

8

INTRODUCTION OF PERJURY CHARGES

9

PERJURY AND OBSTRUCTION OF JUSTICE CHARGES CONFIRED-12
AGENCY OFFICIALS DISSMISSED AND VACATED ALL OF THEIR
13

CHARGES ON AUGUST 14, 2015— (ADDENDUM B)

THE 8 MILLION DOLLAR WHISTLEBLOWING COMPLAINT SHOULD
BE CONFIRMED FOR THE AGENCY FAILURE TO ANSWER............... 14
MR JERRY RUSSEL’S LETTER DATED AUGUST 14, 2015 VACATING
AND DISMISSING ALL CHARGES WITH AN APOLOGY
ADDENDUM B
5 C.F.R. 752.404 (g) is being submitted for information purposes
ADDENDUM C

Only.

Page 1 of 1

Case 2019-1908

TABLES OF AUTHORIES
CASES

PAGE

Cleveland Board of Education v. Loudermill,

1,2

470U.S. 532, 546 (1985)

Stephen v. Department of the Air Force,

7

47, M.S.P.R. 672(1991)

Stone v. Federal Deposit Insurance Corporation,

3

179 F.3d 1368, 1376-77 (Fed Cir.1999).

WARD V. USPS, 634 F.3d 1274 (Fed Cir 2011)

Case 2019-1908

4,5

ATTACHMENTS AS ADDENDUM
ADDENDUM A:
19-1908 U.S. Court of Appeals for the Federal Circuit Document 65,
Decision dated September 2, 2020

ADDENDUM B:
Jerry Russell email dated August 14, 2015 apology

ADDENDUM C:

5 C.F. R. 752.404 (g)

Case 2019-1908

ADDENDUM A

Case 2019-1908

ADDENDUM A

SEE ATTACHED:

19-1908 U.S. Court of Appeals for the Federal Circuit Document 65,
Decision dated September 2, 2020

Case 2019-1908

ADDENDUM B

Case 2019-1908

•V

!
j

l
ii

ADDENDUM B

August 14, 2015 email Jerry Russell apology for August 14, 2015 email
11:58 AM.
?S7S5SS*J2f?

:#aa

S

' A

T6: Aviles-Wynkoop, Elizabeth CIV WHS EITSD (US); Ensley, Carol A CIV WHS EITSD
-f

8HSSSI
i

■: .

' ..>1 '

ae,.

0

i

•/

TS

■g0rfl^^ydo^n'ot?R5iV6'

WMpWmF"^B”"»
:,

m:
'M

i

§

Case 2019-1908

.;

:• - •'. /

.

-v,..,•'. . : -

/

ADDENDUM C

Case 2019-1908

ADDENDUM C

5 C.F.R. 752. 404 (g) states:
Title 5: Administrative Personnel
PART 752—ADVERSE ACTIONS
Subpart D—Regulatory Requirements for Removal, Suspension for More Than 14
Days, Reduction in Grade or Pay, or Furlough for 30 Days or Less
§752.404 Procedures.

(g) Agency decision. (1) In arriving at its decision the agency will consider
only the reasons specified in the notice of proposed action and any answer of
the employee or his or her representative, or both, made to a designated
official and any medical documentation reviewed under paragraph (f) of this
section.
x

Case 2019-1908

CERTIFICATE OF COMPLIANCE

I, Elizabeth Aviles-Wynkoop, in reliance upon the word count of the
word processing system used to prepare this motion, certify that this
motion complies with the type-volume limitation of
Fed. R. App. P. 27(d)(2) because it contains 4181 words but within the
15 page limit, excluding the parts of the motion exempted by Fed. Cir.
R. 27(d)(2).

Case 2019-1908

CERTIFICATE OF SERVICE CASE 19-1908
I certify that the attached Document(s) was (were) sent as indicated this
day to each of the following:
Email sent to prose@cafc.uscourts.gov and sent OVERNIGHT
EXPRESS U.S. POSTAL SERVICE with 3 copies to:
US Court of Appeals For The Federal Circuit
Peter R. Marksteiner
Clerk of Court
717 Madison Place, NW
Washington, DC 20439
Hand Delivered:

Petitioner:

Elizabeth Aviles-Wynkoop, Pro-Se
753B Delaware Ave SW
Washington, DC 20024
Agency Representative US Postal Service Mail:
Case 2019-1908

JOSEPH H. HUNT, Assistant Attorney General
Commercial Litigation Branch
Civil Division
U.S. Department of Justice
950 Pennsylvania Ave NW
Washington, DC 20530
Phone(202)514-3368; Fax (202)514-9963
Agency Representative US Postal Service Mail:
ROBERT E. KIRSCHMAN, Jr. Director
Commercial Litigation Branch
Civil Division
U.S. Department of Justice
1100 L St NW, RM 12124
Washington, DC 20530
Phone (202) 514-3368; Fax (202)514-9963
Case 2019-1908

Agency Representative US Postal Service Mail:
REGINALD T. BLADES, Jr. Assistant Director
Commercial Litigation Branch
Civil Division
U.S. Department of Justice
1100 L St NW, 8th Floor
Washington, DC 20530
Phone (202) 307-6288; Fax (202) 305-7643
Agency Representative US Postal Service Mail:
Delisa Sanchez
Commercial Litigation Branch
Civil Division
U.S. Department of Justice
1100 L St NW, RM 12124
Washington, DC 20530
Case 2019-1908

Phone (202) 307-6288; Fax (202) 305-7643

October 3, 2020
Date

Name: Elizabeth Aviles-Wynkoop, Pro-Se

Case 2019-1908

VII. INDEX TO APPENDICES

APPENDIX N

Case: 19-1908

Document: 70

Page: 1

Filed: 11/05/2020

NOTE: This order is nonprecedential.

States Court of appeals;
for tlje Jfeberal Circuit
ELIZABETH AVILES-WYNKOOP,
Petitioner
v.
DEPARTMENT OF DEFENSE,
Respondent
2019-1908
Petition for review of the Merit Systems Protection
Board in No. DC-315H-16-0327-B-1.

ON PETITION FOR PANEL REHEARING AND
REHEARING EN BANC
Before PROST, Chief Judge, Newman, Lourie, Linn*, Dyk,
Moore, O’Malley, Reyna, Wallach, Taranto, Chen,
Hughes, and Stoll, Circuit Judges.
Per Curiam.

* Circuit Judge Linn participated only in the decision
on the petition for panel rehearing.

Case: 19-1908

Document: 70

Page: 2

Filed: 11/05/2020

AVILES-WYNKOOP v. DEFENSE

2

ORDER
Petitioner Elizabeth Aviles-Wynkoop filed a combined
petition for panel rehearing and rehearing en banc. The
petition was referred to the panel that heard the appeal,
and thereafter the petition for rehearing en banc was re­
ferred to the circuit judges who are in regular active ser­
vice.
Upon consideration thereof,
It Is Ordered That:
The petition for panel rehearing is denied.
The petition for rehearing en banc is denied.
The mandate of the court will issue on November 12,
2020.

For the Court
November 5, 2020
Date

/s/ Peter R. Marksteiner
Peter R. Marksteiner
Clerk of Court

VII. INDEX TO APPENDICES

APPENDIX O

>

Case: 19-1908

Document: 71

Page: 1

Filed: 11/12/2020

®ntteb J§>tate£ Court of Uppeafe
for tfje Jfcberaf Circuit
ELIZABETH AVILES-WYNKOOP,
Petitioner
v.
DEPARTMENT OF DEFENSE,
Respondent
2019-1908
Petition for review of the Merit Systems Protection
Board in No. DC-315H-16-0327-B-1.
MANDATE
In accordance with the judgment of this Court, entered
September 2, 2020, and pursuant to Rule 41 of the Federal
Rules of Appellate Procedure, the formal mandate is
hereby issued.
FOR THE COURT
November 12, 2020

Isl Peter R. Marksteiner
Peter R. Marksteiner
Clerk of Court

